No. 20-152

 

 

IN THE

Supreme Court of the United States

ANASTASIA WULLSCHLEGER AND GERALDINE BREWER,

Petitioners,
v.

ROYAL CANIN U.S.A., INC. AND
NESTLE PURINA PETCARE COMPANY,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,009 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 14, 2020.

Colin Casey/Hogan
Wilson-Epes Printing Co., Inc.
